No. 20-1179
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------WILLIAM W. COLE, JR.,
Petitioner,
vs.
LORI PATTON, as Chapter 7 Trustee;
PRN REAL ESTATE AND INVESTMENTS, LTD;
and NANCY ROSSMAN,
Respondents.
---------------------------------♦--------------------------------On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
---------------------------------♦--------------------------------SUPPLEMENTAL APPENDIX
---------------------------------♦--------------------------------JAMES K. GREEN, ESQ.
JAMES K. GREEN, P.A.
222 Lakeview Avenue
Suite 1650, Esperante
West Palm Beach, Florida 33401
Telephone: (561) 695-2029
Facsimile: (561) 655-1357
jkg@jameskgreenlaw.com
Counsel of Record for Petitioner
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF CONTENTS
Page
Judgment and Memorandum Opinion of the
United States Bankruptcy Court for the Middle District of Florida on March 1, 2021 ..... S. App. 1

S. App. 1
ORDERED.
Dated: February 26, 2021
/s/ Karen S. Jennemann
Karen S. Jennemann
United States
Bankruptcy Judge
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
www.flmb.uscourts.gov
In re
William W. Cole, Jr.,
Debtor.
PRN Real Estate &
Investments, Ltd.
Plaintiff,
vs.
William W. Cole, Jr.,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.
6:15-bk-06458-KSJ
Chapter 7

Adversary No.
6:15-ap-00168-KSJ

FINAL JUDGMENT
(Filed Mar. 1, 2021)
Consistent with the Memorandum Opinion simultaneously entered, it is ORDERED:

S. App. 2
1. Judgment is entered for the Defendant and
Debtor, William W. Cole, Jr., and against the Plaintiff,
PRN Real Estate Investments, Ltd.
2. The debt owed by Debtor/Defendant, William
W. Cole, Jr., to the Plaintiff, PRN Real Estate & Investments, Ltd., is dischargeable under §523(a) of the
Bankruptcy Code.
3. Debtor/Defendant, William W. Cole, Jr., may
receive a Discharge under §727(a) of the Bankruptcy
Code.
###
The Clerk will serve a copy of this order on all interested parties.

S. App. 3
ORDERED.
Dated: February 26, 2021
/s/ Karen S. Jennemann
Karen S. Jennemann
United States
Bankruptcy Judge
UNITED STATES BANKRUPTCY COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
www.flmb.uscourts.gov
In re
William W. Cole, Jr.,
Debtor.
PRN Real Estate &
Investments, Ltd.
Plaintiff,
vs.
William W. Cole, Jr.,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.
6:15-bk-06458-KSJ
Chapter 7

Adv. No.
6:15-ap-00168-KSJ

MEMORANDUM OPINION
(Filed Mar. 1, 2021)
Plaintiff, PRN Real Estate & Investments, Ltd.
(“PRN”), is a company owned and operated by Nancy
Rossman and her family. Rossman and Defendant, William W. Cole, Jr., are former romantic and business

S. App. 4
partners. Cole and Rossman have a contentious business and personal history. In 2012, they settled their
business dispute. But the settlement failed in 2014,
and extensive litigation between the parties has ensued ever since.1
On July 27, 2015, Cole ﬁled this Chapter 7 bankruptcy case seeking to discharge his substantial debts
to Rossman, PRN, and his other creditors.2 PRN ﬁled
its thirteen-count complaint in this proceeding seeking
to have the debts Cole owes PRN determined to be
nondischargeable and to deny Cole his Chapter 7 discharge.3
In its six remaining counts,4 PRN asserts that
Cole’s debts are nondischargeable under Bankruptcy
1

The ﬁrst lawsuit between the parties was ﬁled on July 28,
2014. Rossman and PRN ﬁled that action in Florida state court
and named Cole, his wife Terre, and one of his business entities,
Cole of Orlando Limited Partnership, as defendants. PRN Real
Estate & Invs., Ltd, et. al. vs. William W. Cole, Jr., et. al, Case No.
2014-CA-008104-O, Circuit Court for the 9th Judicial Circuit, in
and for Orange County, Florida. Other lawsuits followed.
2
Voluntary Pet., Case No. 6:15-bk-06458-KSJ, Doc. No. 1.
3
Third Amended Complaint to Determine Dischargeability
of Debt and Deny Debtor a Discharge (the “Third Amended Complaint”), Adv. Doc. No. 230.
4
On August 16, 2018, the Court granted summary judgment
in Cole’s favor on Counts 3 through 6. Order Granting Motion for
Summary Judgment on Counts III – VI of the Third Amended
Complaint, Adv. Doc. No. 401. PRN later abandoned Counts 10,
12, and 13, as reﬂected in the Order Partially Granting Debtor’s
Ore Tenus Motion for Judgment on Partial Findings Under Bankruptcy Rule 7052(C). Adv. Doc. No. 425. Thus, the remaining
counts are Counts 1, 2, 7, 8, 9 & 11.

S. App. 5
Code5 §§ 523(a)(2)(A) [Count 1] and 523(a)(2)(B)
[Count 2] and that Cole is not entitled to a discharge
under Bankruptcy Code §§ 727(a)(2)(A) [Count 8],
727(a)(2)(B) [Count 9], and 727(a)(4)(A) [Count 11].6
PRN also asks the Court to assess the amount of PRN’s
claim against Cole [Count 7].7 Cole strenuously denies
PRN’s allegations.8

5

All references to the Bankruptcy Code refer to 11 U.S.C.
§§ 101 et seq.
6
Third Am. Compl., Adv. Doc. No. 230, Counts 1, 2, 8, 9, and
11.
7
Third Am. Compl., Adv. Doc. No. 230, Count 7.
8
Def.’s Answer & Afﬁrmative Defenses to Third Am. Compl.,
Adv. Doc. No. 241.

S. App. 6
After trial,9 and in consideration of the record (including the parties’ post-trial briefs),10 ﬁnal judgment
is entered for Cole on all counts. Thus, Cole will receive
a discharge, and any debts Cole owes PRN are dischargeable.
I.

Due Process and Fairness Protections

Before explaining the basis for my ruling, I ﬁrst
need to address due process and fairness concerns.
9

The seven-day trial occurred on July 16 – 19, 2018; September 11 – 12, 2018; and October 12, 2018. The following witnesses
testiﬁed at trial: Cole; Rossman (PRN’s Representative); PRN’s
proffered expert, Susan Smith; Cole’s proffered expert, Robert
Morrison; and the Chapter 7 Trustee, Lori Patton. On October 20,
2020, Cole also was allowed to supplement his testimony on a discrete issue. Transcripts are located at Adv. Doc. Nos. 412 (July
16, 2018); 413 (July 17, 2018); 465 (July 18, 2018); 414, 466, and
467 (July 19, 2018); 429 (September 11, 2018); 430 and 431 (September 12, 2018); 432 (October 12, 2018); and 488 (October 20,
2020).
Although the trial lasted seven days, the transcript is numbered consecutively from page 1 to page 1,438. Citations to the
trial transcript will follow this format: Trial Tr. [page]:[line]. Citations to Cole’s supplemental testimony will follow this format:
Supp. Tr. [page]:[line].
The trial record also includes deposition testimony in lieu of
live testimony of these parties: Terre Cole (Adv. Doc. No. 403);
Frederic G. Schaub (Adv. Doc. No. 404); Kimberly Grifﬁn, individually and on behalf of Griffon Properties, LLC (Adv. Doc. No. 405);
Jacob Farmer (Adv. Doc. No. 406); and Richard Farmer, individually and on behalf of Andermer, LLC (Adv. Doc. No. 407). Citations to the deposition testimony will follow this format: [Name of
Deponent] Dep., Adv. Doc. No. [#], [page]:[line].
10
Pl.’s Post-Trial Brief, Adv. Doc. No. 435; Def.’s Post-Trial
Brief, Adv. Doc. No. 436.

S. App. 7
After trial concluded on October 12, 2018, the Honorable Cynthia Jackson, who administered this bankruptcy case and conducted the trial in this proceeding,
encountered serious medical issues that precluded her
from entering a ﬁnal ruling. So, on July 21, 2020, Cole’s
bankruptcy case and all related adversary proceedings, including this one, were reassigned to me. I had a
lot of catching up to do to ensure both parties receive a
full and fair ruling on all issues: I read the entire record, including the trial transcript and depositions admitted in lieu of testimony; I reviewed all the admitted
trial exhibits; and I otherwise immersed myself in this
adversary proceeding.
Before issuing this Memorandum Opinion, I also
held three status conferences to help me understand
the background of this proceeding and the pending factual and legal issues.11 Attorneys for both parties were
forthright and helpful. I am grateful for their cooperation and professionalism. We openly discussed ways for
both parties to feel secure they received a full and fair
hearing and proper due process in these tragic circumstances.
We also discussed whether the parties wanted to
present any supplemental testimony and whether they
preferred that my initial ruling be preliminary (as opposed to ﬁnal) so they could comment on my ruling and
correct any errors that may have arisen from my not
11

The status conferences were held on August 7, 2020 (Adv.
Doc. No. 461), September 15, 2020 (Adv. Doc. No. 463), and October 20, 2020 (Adv. Doc. No. 485).

S. App. 8
having lived through the last ﬁve years of this dispute.
The attorneys conferred with their clients and ﬁled
post-trial responses agreeing no further testimony was
needed and requesting a preliminary ruling to allow
them to identify errors.12
Although the parties did not see the need for supplemental testimony, I ultimately decided that I
needed additional testimony from the Chapter 7 Trustee and Cole—and an opportunity to observe Cole’s
demeanor while testifying—regarding a narrow yet
important issue. Cole and the Chapter 7 Trustee testiﬁed on October 20, 2020. Once Cole and the Chapter 7
Trustee testiﬁed, the record was ﬁnal, except for a few
open evidentiary and judicial notice issues, which the
Court has since resolved.13
On December 8, 2020, the Court entered a Preliminary Memorandum Opinion.14 The parties had until
December 22, 2020, to identify any errors or omissions
in the Court’s preliminary ruling.15 The parties also
had the opportunity to reply to the errors or omissions
identiﬁed by each other.16 Both parties have now done
12

Pl.’s Notice Regarding Pending Rulings, Need to Re-call
Witnesses, and Preference for Prelim. Ruling, Adv. Doc. No. 471;
Def.’s Resp. to Court Inquiries, Adv. Doc. No. 472.
13
Order Resolving Pending Evidentiary Issues, Adv. Doc. No.
492; Order Partially Granting & Denying Parties’ Requests for Judicial Notice, Adv. Doc. No. 493.
14
Order Permitting Parties to Identify Errors in Prelim.
Mem. Op., Adv. Doc. No. 491, Ex. A.
15
Id. at 2.
16
Id.

S. App. 9
so.17 The Court has considered the parties’ ﬁlings (and
the errors and omissions each party identiﬁed) and
now issues this ﬁnal Memorandum Opinion.
II.

Background.

William Cole is well educated and an experienced
businessman. He was a certiﬁed public accountant and
a chief ﬁnancial ofﬁcer at a local bank.18 By 2000, Cole
focused on real estate projects for his primary livelihood. The size of Cole’s real estate projects varied
greatly from single luxury homes to large residential
and commercial projects. Cole specialized in ﬁnding
projects, attracting investors, and then managing the
construction aspects, usually partnering with an experienced builder. Perhaps one could consider Cole a
“middleman” who connects wealthy investors with
builders with construction expertise.
Over the years, Cole formed numerous separate
business entities for his real estate development projects. Some, like C&G Real Estate Group, LLC (“C&G”),
were operating entities so Cole and a business partner,
Allan Goldberg, could locate and develop different
17

Pl.’s Resp. Pursuant to Order Permitting Parties to Identify
Errors in Prelim. Mem. Op., Adv. Doc. No. 495; William W. Cole,
Jr.’s Resp. to Order Permitting Parties to Identify Errors in Prelim. Mem. Op., Adv. Doc. No. 496; Pl.’s Reply to Def.’s Resp. to
Order Permitting Parties to Identify Errors in Prelim. Mem. Op.,
Adv. Doc. No. 500; William W. Cole, Jr.’s Reply to Pl.’s Resp. to
Order Permitting Parties to Identify Errors in Prelim. Mem. Op.,
Adv. Doc. No. 501.
18
Trial Tr. 45:7 – 47:11.

S. App. 10
projects together. But most of the multitude of business
entities Cole formed related to speciﬁc projects. Each
project had one or more associated and specialized
business entities, allowing Cole to account for capital
investments, expenses, and profits on a project-byproject basis. Cole was involved with over forty entities.
PRN Real Estate & Investments, Ltd. is owned by
Nancy Rossman and her sisters, Paula and Ruth—
PRN. (Nancy Rossman is PRN’s primary representative.) Starting in 2000, PRN funded numerous projects
that Cole proposed through C&G (and perhaps other
operating entities). Cole and Rossman worked closely
on these projects, which were complex and expensive.
And, for many years, they trusted each other.19
By 2008, however, when the real estate recession
was most pronounced, losses on these projects were
mounting. In November 2008, PRN agreed to loan additional capital to complete Cole’s projects, with Cole
personally guaranteeing repayment of the loans.20 Cole
however did not pay PRN when the loans came due on
November 25, 2011.21
So, the parties started discussing a reﬁnement to
their earlier deal, and on June 2, 2012, they reached a

19
20
21

Trial Tr. 793:1 – 8.
PRN Ex. 1, Adv. Doc. No. 318-1.
Trial Tr. 56:3 – 11.

S. App. 11
new agreement (the “Settlement Agreement”).22 Under
the Settlement Agreement, Cole had to end his business relationship with Goldberg. He also had to continue working with PRN on older projects and give
PRN an opportunity to invest in his new projects. The
Settlement Agreement also required Cole to make certain percentage payments (and provide extensive ﬁnancial reporting) to PRN.
Without doubt, Cole eventually breached his duties under the Settlement Agreement. In 2014, two
years after the parties had entered into the Settlement
Agreement, PRN declared the agreement in default
and sued Cole and others in state court. By that point,
any trust between the parties had dissolved.
On July 27, 2015, Cole ﬁled this Chapter 7 bankruptcy case. Cole’s bankruptcy case is, for all practical
purposes, a two-party dispute between Cole and
Rossman (and the entities she controls, such as PRN).23
PRN timely ﬁled this adversary proceeding seeking to
22

PRN Ex. 2, Adv. Doc. No. 318-2. Although the Settlement
Agreement was entered into on June 2, 2012, it was effective as
of May 8, 2012.
23
Fourteen claims have been ﬁled in this case. Two claims
appear unrelated to the dispute between Cole and Rossman:
Claim No. 1 by Valley National Bank for $1,262,000; and Claim
No. 2 by Gateway Bank of Florida for $1,702,200. The other
twelve claims were ﬁled by Rossman, PRN, related businesses, or
family members. These Rossman-related claims total more than
$155 million. The Court makes no ﬁnding as to the legitimacy or
duplicative nature of these claims. It is obvious, however, that the
primary creditor is Rossman, her family, or companies she controls.

S. App. 12
have the debts Cole owes PRN determined to be nondischargeable and to deny Cole his Chapter 7 discharge.
The parties now are engaged in open warfare, as
demonstrated by the ire displayed during the trial. The
conclusions and ﬁndings that follow are my best attempt to rule on the legal and factual issues raised
while avoiding the emotional mineﬁeld between the
parties.
III. PRN failed to prove that its debt is nondischargeable under §§ 523(a)(2)(A) and (B)
(Counts 1 and 2) because the evidence
showed Cole intended to perform under
the Settlement Agreement and did not misrepresent the Schaub Obligations.
In Count 1, PRN asserts Cole fraudulently induced it to enter into the Settlement Agreement24 by
promising to perform the duties speciﬁed in the agreement even though he had no intention of doing so. Speciﬁcally, PRN argues Cole never intended to (1) offer
PRN opportunities to invest in new joint ventures before doing any new deal with a third party, as required
in paragraph 15 of the Settlement Agreement; (2) make
the payments required under the Settlement Agreement; or (3) otherwise do what he promised. In Count
2, PRN also asserts that Cole afﬁrmatively misrepresented his ﬁnancial condition by misrepresenting his
supposed right to receive payments from Fred Schaub
24

PRN Ex. 2, Adv. Doc. No. 318-2.

S. App. 13
(the “Schaub Obligations”) in paragraph 2(c) of the Settlement Agreement.
According to PRN, Cole’s alleged fraudulent misrepresentations render the debt he owes PRN nondischargeable under Bankruptcy Code §§ 523(a)(2)(A)
and (B), which generally except from the discharge
debts resulting from fraudulent misrepresentations.
The requirements of Bankruptcy Code §§ 523(a)(2)(A)
and (B) are similar. Both § 523(a)(2)(A) and § 523(a)(2)(B)
require a creditor to prove that the debtor made a false
representation with the intent to deceive the creditor;
the creditor justiﬁably or reasonably relied on the representation; and the creditor sustained a loss because
of the misrepresentation.25 The only difference between the sections is that § 523(a)(2)(A) is broad in
scope, excepting from the discharge debts resulting
from any fraud or false representation other than a
statement respecting the debtor’s (or an insider’s) financial condition,26 whereas § 523(a)(2)(B) is more

25

SEC v. Bilzerian (In re Bilzerian), 153 F.3d 1278, 1281
(11th Cir. 1998) (setting forth the elements of a claim under
§ 523(a)(2)(A)); Equitable Bank v. Miller (In re Miller), 39 F.3d
301, 304 (11th Cir. 1994) (setting forth the elements of a claim
under § 523(a)(2)(B)).
26
11 U.S.C. § 523(a)(2)(A) (excepting from the discharge any
debt “for money, property, services, or an extension, renewal, or
reﬁnancing of credit, to the extent obtained by . . . false pretenses,
a false representation, or actual fraud, other than a statement respecting the debtor’s or an insider’s ﬁnancial condition”).

S. App. 14
narrow, applying only to false representations made in
writing respecting the debtor’s ﬁnancial condition.27
Here, most of the testimony regarding fraud revolved around Cole’s alleged lack of intent to perform
under the Settlement Agreement. PRN, however, also
introduced evidence of Cole’s representations regarding his supposed right to receive payments from
Schaub (i.e., the Schaub Obligations), which go to
Cole’s ﬁnancial condition. Thus, both § 523(a)(2)(A)
and § 523(a)(2)(B) apply here. But, after evaluating all
the evidence, I conclude that PRN has failed to establish a claim for fraudulent inducement under either
§ 523(a)(2)(A) or § 523(a)(2)(B).
A. Cole consistently performed his duties
under the Settlement Agreement.
As a starting point, there is no question Cole
breached the Settlement Agreement. Breach of a contractual obligation, however, rarely gives rise to a
§ 523(a)(2)(A) claim.28 To raise a § 523(a)(2)(A) claim
based on a debtor’s failure to perform a promise, a creditor must show that the debtor lacked the subjective
27

11 U.S.C. § 523(a)(2)(B) (excepting from the discharge any
debt “for money, property, services, or an extension, renewal, or
reﬁnancing of credit, to the extent obtained by . . . use of a statement in writing . . . that is materially false[ ] respecting the
debtor’s or an insider’s ﬁnancial condition”).
28
Rosenberg Ventures, Inc. v. Velasco (In re Velasco), 617
B.R. 718, 734 – 35 (Bankr. M.D. Fla. 2020) (“Ordinarily, a broken
promise to perform in the future does not give rise to a § 523(a)(2)
claim.”).

S. App. 15
intent to perform the promise when the promise was
made.29 So the issue here is whether Cole convinced
PRN to sign the Settlement Agreement in June 2012,
knowing at that time that he never intended to perform
his contractual obligations.
PRN failed to make that showing here. As to Cole’s
overall performance under the Settlement Agreement,
he performed for two and a half years. Rossman’s testimony conﬁrms Cole at least partially performed his
contractual obligations.30 For instance, he continued
working on older and new joint projects with PRN.31
Because of Cole’s help on these PRN projects, PRN received over $14 million after signing the Settlement
Agreement.32 And Cole gave PRN numerous opportunities to join him in new deals as required by paragraph 15 of the Settlement Agreement.33

29

Cary v. Vega (In re Vega), 503 B.R. 144, 148 (Bankr. M.D.
Fla. 2013) (“Statements of intent to perform certain acts in the
future ‘will not generally form the basis of a false misrepresentation that is actionable under Section 523(a)(2)(A) unless the creditor can establish that the debtor lacked the subjective intent to
perform the act at the time the statement was made.’ ”) (quoting
Duncan v. Bucciarelli (In re Bucciarelli), 429 B.R. 372, 375
(Bankr. N.D. Ga. 2010)).
30
Trial Tr. 1022:23 – 1023:2; 1027:8 – 11.
31
Trial Tr. 497:7 – 21; 508:16 – 509:12; 592:5 – 593:18.
32
Trial Tr. 612:13 – 613:10.
33
See, e.g., Cole Ex. 29, Adv. Doc. No. 307-29; Cole Ex. 74,
Adv. Doc. No. 307-74; Cole Ex. 87, Adv. Doc. No. 308-12; Cole Ex.
261, Adv. Doc. No. 313-24; Cole Ex. 299, Adv. Doc. No. 314-11; &
Cole Ex. 300, Adv. Doc. No. 314-12; Trial Tr. 835:24 – 836:12.

S. App. 16
Cole also performed numerous other requirements
under the Settlement Agreement. He stopped doing
business with his former business partner, Allan Goldberg, as required by paragraph 2(e) of the Settlement
Agreement.34 He timely paid PRN $191,533.12 on July
10, 2014, which was the ﬁrst payment required under
paragraph 9 of the Settlement Agreement.35 Indeed,
Rossman conﬁrmed Cole never had a monetary breach
of the Settlement Agreement.36 As required under paragraph 13 of the Settlement Agreement, Cole provided
extensive ﬁnancial reporting to PRN from December
2012 through December 2014,37 even after PRN had
34

Trial Tr. 425:1 – 427:1.
PRN Ex. 2, Adv. Doc. No. 318-2, ¶ 9, pg. 7; Trial Tr. 429:7 –
433:17; 995:3 -996:22.
36
Trial Tr. 996:10 – 22.
37
At least four times, PRN granted Cole short extensions to
provide these reports. Debtor Exs. 27, 31, 36 & 254. PRN, at least
at that point, was satisﬁed with the ﬁnancial information Cole
was supplying under the Settlement Agreement. Cole also forwarded numerous real estate-related documents to PRN between
December 2012 and December 2014. Cole Ex. 14, Adv. Doc. No.
307-14; Cole Ex. 19, Adv. Doc. No. 307-19; Cole Ex. 20, Adv. Doc.
No. 307-20; Cole Ex. 22, Adv. Doc. No. 307-22; Cole Ex. 24, Adv.
Doc. No. 307-24; Cole Ex. 29, Adv. Doc. No. 307-29; Cole Ex. 30,
Adv. Doc. No. 307-30; Cole Ex. 35, Adv. Doc. No. 307-35; Cole Exs.
40 – 42, Adv. Doc. Nos. 307-40 – 307-42; Cole Exs. 49 – 51, Adv.
Doc. Nos. 307-49 – 307-51; Cole Ex. 53, Adv. Doc. No. 307-53; Cole
Ex. 56, Adv. Doc. No. 307-56; Cole Ex. 59, Adv. Doc. No. 307-59;
Cole Ex. 63, Adv. Doc. No. 307-63; Cole Ex. 76, Adv. Doc. No. 3081; Cole Ex. 78, Adv. Doc. No. 308-3; Cole Ex. 79, Adv. Doc. No.
308-4; Cole Ex. 84, Adv. Doc. No. 308-9; Cole Exs. 87 – 95, Adv.
Doc. Nos. 308-12 – 308-20; Cole Ex. 128, Adv. Doc. No. 310-3; Cole
Ex. 239, Adv. Doc. Nos. 313-1 & 313-2; Cole Ex. 266, Adv. Doc.
No. 313-29; Cole Exs. 277 – 280, Adv. Doc. Nos. 313-40 – 313-43;
Cole Ex. 295, Adv. Doc. No. 314-7.
35

S. App. 17
declared Cole in default under the Settlement Agreement.38 These are hardly the actions of someone who
never intended to perform his contractual obligations.
Cole likely did not supply all the ﬁnancial information requested by PRN or offer PRN every possible
joint venture option. He may not have done everything required under the Settlement Agreement. He
breached the Settlement Agreement. But he demonstrated he wanted to, and substantially did, perform
his duties under the Settlement Agreement.
It is worth noting that, even though PRN claims
Cole never intended to perform the Settlement Agreement, PRN did not declare a default under the Settlement Agreement until over two years after the parties
signed it.39 PRN’s complaints about the extent of Cole’s
performance ring hollow when PRN had ample notice
of possible breaches as early as July 2012 but never
declared a default.40
38

Cole Ex. 65, Adv. Doc. No. 307-65.
Id.
40
For example, PRN now contends Cole breached the Settlement Agreement by forming Coledev, LLC with his wife and son
in July 2012. Pl.’s Post-Trial Brief, Adv. Doc. No. 435 at 25. But
Cole sent PRN a copy of the proposed Operating Agreement before
forming Coledev. Cole Ex. 101, Adv. Doc. No. 309-1; Trial Tr.
478:21 – 481:19. Rossman objected in writing to Cole starting this
family business. PRN Ex. 254, Adv. Doc. No. 352-3; Trial Tr. 823:9
– 826:13. But PRN did not deem it an event of default until years
later. PRN and Cole continued working under the Settlement
Agreement for another two years even though Rossman had actual knowledge Cole was using Coledev, LLC as his primary operating entity.
39

S. App. 18
PRN has established no type of fraudulent inducement claim under § 523(a)(2)(A). Cole signed the
Settlement Agreement intending to perform, and he
largely did perform. Thus, PRN failed to establish that
its debt is nondischargeable under § 523(a)(2)(A). Cole
is entitled to judgment in his favor on Count 1.
B. Cole did not misrepresent the Schaub
Obligations.
Fred Schaub and Cole are friends. Before 2008,
Schaub would build houses with money invested by
Cole and his partner, Goldberg, through their jointly
owned entity C&G Real Estate Group, Inc. Schaub
built homes under an umbrella of entities deﬁned in
the Settlement Agreement as the “Arlington Entities.”41 By the time Schaub stopped construction after
the real estate crash in 2008, Cole, Goldberg, or C&G
Real Estate Group, Inc. had advanced roughly $980,000
to Schaub and the Arlington Entities. The $980,000 in
advances remained unpaid in 2012, when Cole was negotiating the Settlement Agreement with PRN. Schaub
had no legal obligation to repay these advances.
Because Schaub and Cole remained friends and
hoped to do business together in the future, however,
they discussed an arrangement where Schaub would
41

PRN Ex. 2, Adv. Doc. No. 318-2, Ex. A, ¶ 3. “Arlington Entities” is deﬁned as “Arlington Homes, LLC, Hanover Homes of
Winter Park, LLC, Arlington Homes of Winter Park, LLC or other
entities involving Fred Schaub and Lance Earl or related to the
homebuilding business.”

S. App. 19
share 25% of his net proﬁts on future unidentiﬁed projects to help Cole, Goldberg, and C&G Real Estate
Group, Inc. recapture some of their lost investments.42
But Schaub paid little or nothing to Cole under this
loose, unenforceable, verbal agreement between friends.43
And Schaub’s testimony is ambiguous whether he ever
intended to pay Cole anything.44
When Cole and PRN were negotiating the Settlement Agreement, which generally required Cole to pay
PRN 20% of his “Net Cash” (other than from certain
outside activities and existing deals), he asked to keep
50% of any payments C&G Real Estate Group, Inc. received from Schaub (i.e., the Schaub Obligations).45
Paragraph 2(c) was added to the Settlement Agreement at Cole’s insistence so that Cole did not have
to include the Schaub Obligations when calculating
42

Trial Tr. 361:1 – 365:11; 390:7 – 392:13.
It appears Schaub paid a small amount to C&G Housing
Investments, LLC, perhaps under this loose agreement with Cole.
Cole Ex. 119, Adv. Doc. No. 309-19; Trial Tr. 368:10 – 373:18.
44
Schaub Dep., Adv. Doc. No. 404, 36:6 – 42:16; 63:3 – 64:5;
67:24 – 69:15.
45
PRN Ex. 2, Adv. Doc. No. 318-2, Ex. A, ¶ 20(c). PRN points
to emails between Cole and Rossman discussing revisions to the
“Schaub Obligations” portion of the Settlement Agreement, arguing the emails conﬁrmed that Cole misrepresented that the
Schaub Obligations were an enforceable debt. PRN Ex. 247, Adv.
Doc. No. 326-27, at 10, 13, 17 & 21. I did not read these emails
that way and found no signiﬁcant inconsistency between the content of these emails and the ﬁnal language in paragraphs 2(c) and
20 (c) of the Settlement Agreement. Cole never misrepresented
the Schaub Obligations as a legally enforceable debt – before, during, or after he signed the Settlement Agreement.
43

S. App. 20
amounts he owed to PRN under the Settlement Agreement.46
Thus, under paragraph 2(c), Cole was allowed to
keep 50% of any payments C&G Real Estate Group,
Inc. received from Schaub, even if PRN later assumed
control of C&G Real Estate Group, Inc.47 After Cole and
PRN entered into the Settlement Agreement, PRN did
assume control of C&G Real Estate Group, Inc.48 Fred
Schaub however made no payments to C&G Real Estate Group, Inc. So, neither Cole nor PRN received any
monies.
PRN now claims Cole misrepresented C&G Real
Estate Group, Inc.’s entitlement to the Schaub Obligations to “trick” PRN into signing the Settlement Agreement. This argument fails on several grounds.
First, the language in paragraph 2(c) of the Settlement Agreement is clear—Schaub had no legal obligation to pay C&G Real Estate Group, Inc. a dime:

46

Section 11 of the Settlement Agreement describes Cole’s
payment obligations to PRN using deﬁned terms “Net Cash” and
“Percentage Payment.” PRN Ex. 2, Adv. Doc. No. 318-2, ¶ 11. Under paragraph 2(c), 50% of monies paid by Fred Schaub or his entities would not be included in this calculation. PRN Ex. 2, Adv.
Doc. No. 318-2, ¶ 2(c).
47
Trial Tr. 135:2 – 17; 139:19 – 140:2; 394:5 – 396:3. Rossman conﬁrmed this section was added to the Settlement Agreement at Cole’s request. Trial Tr. 776:5 – 7.
48
Trial Tr. 140:8 – 141:9. PRN, through a designee corporation, purchased C&G Real Estate Group, Inc.’s stock after a public
sale under a stock pledge. Therefore, PRN’s designee would retain
the right to 50% of any payment of the Schaub Obligations.

S. App. 21
i.

Cole, Goldberg and Fred Schaub have
been business partners for many years.
Over the last several years, Schaub and
certain Arlington Entities experienced
cash-ﬂow problems. Cole and Goldberg
and/or C&G Real Estate Group, Inc. advanced funds to Schaub and certain Arlington Entities. It is estimated that
$980,000 of those funds has not been repaid and remain outstanding as further
described on Exhibit A, item 20(c).

ii.

The agreement between the parties (i.e.
Cole, Goldberg, and Schaub) is that
Schaub would pay (as he has done in the
past) 25% of monies received by certain
Arlington Entities (net of costs as the
costs categories are agreed to by the parties for that particular deal). The agreement set forth above has not always been
strictly adhered to and is not in writing.49

Nowhere in paragraph 2(c) does Cole represent
that Fred Schaub or his entities owed a debt to him or
to C&G Real Estate Group, Inc. No speciﬁc corporate
obligor is identiﬁed. No terms—such as periodic payment amounts, an interest rate, or maturity date—are
identiﬁed. No speciﬁc debt is mentioned, although it is
“estimated” that Cole, Goldberg, or C&G Real Estate
Group, Inc. may have advanced $980,000 to some unidentiﬁed entities, which has not been repaid.

49

PRN Ex. 2, Adv. Doc. No. 318-2, Ex. A, ¶ 2(c) (emphasis
added).

S. App. 22
Although paragraph 2(c) provides that “Fred
Schaub would pay 25% of monies received by [unidentiﬁed] Arlington Entities (net of costs as the costs categories are agreed to by the parties for that particular
[unidentiﬁed] deal),” the same paragraph expressly
acknowledges that the agreement is not in writing and
that the parties have not always “strictly adhered” to
it. Lest there be any doubt there is no legally enforceable agreement between Cole and Schaub, section 20(c)
of Exhibit A to the Settlement Agreement further conﬁrms that any repayment obligation by Schaub is discretionary and legally unenforceable “as agreed to by
the parties due to the desire to keep the Arlington Entities cash ﬂowing and/or solvent.”
Rossman is a sophisticated lender. During her testimony, it was clear she is very competent and able to
parse this language for what it was: a “hope” that
Schaub would repay Cole, Goldberg, or C&G Real Estate Group, Inc. some of the $980,000 they advanced to
him and his companies during the hot real estate market between 2000 and 2008. But no reasonable businessperson would interpret this language as a legal
obligation to repay any monies. PRN hoped to get
$490,000 from Schaub. So did Cole. Schaub, however,
made no such payments.
But that does not mean Cole afﬁrmatively misrepresented his agreement with Schaub. Cole testiﬁed
that the language in paragraph 2(c) accurately reﬂected his loose agreement with his friend. Cole hoped
Schaub would help him and Goldberg recoup some of
their losses when he got paid on future deals. But this

S. App. 23
was never more than “a moral obligation.”50 And, if any
payments were made, Cole hoped to keep 50% of the
monies and share 50% with PRN.
Putting aside there was no misrepresentation,
PRN could not have justiﬁably relied on the abstruse
language in paragraph 2(c) of the Settlement Agreement to demonstrate any deception by Cole. The provision contained no deﬁnitive terms or details typically
associated with a legally enforceable debt obligation.
Before signing the Settlement Agreement, PRN never
asked Cole to supply any ﬁnancial statements, ﬁnancial disclosures, or additional information explaining
the Schaub Obligations.51
Rossman conﬁrmed the loose nature of Schaub’s
hope to repay Cole’s advances in an email she sent to
Cole on April 26, 2012, about one month before signing
the Settlement Agreement:
Fred conﬁrmed to me that the debt Arlington
has is to C&G Real Estate . . . I assume it will
be shown on C&G Real Estate tax return and
of course recorded on Arlington’s.52
But she did not ask to see either return. No prudent,
objective lender could justiﬁably rely on the language
in the Settlement Agreement to conclude that Schaub

50

Trial Tr. 130:16 – 21; 134:2 – 135:17; 138:4 – 13; 372:11 –
373:3; 392:25 – 394:4; 658:6 – 11.
51
Trial Tr. 398:3 – 21.
52
Cole Ex. 203, Adv. Doc. No. 312-28; Trial Tr. 788:20 –
791:4.

S. App. 24
or one of his entities would pay any monies to Cole or
C&G Real Estate Group, Inc.
PRN failed to prove its fraudulent inducement
claim under § 523(a)(2)(B). Cole made no actionable
misrepresentations regarding the Schaub Obligations. Thus, PRN failed to prove that any debt Cole
owed it is nondischargeable under Bankruptcy Code
§ 523(a)(2)(B). Cole is entitled to judgment in his favor
on Count 2.
IV. The Court will liquidate PRN’s claim in the
main bankruptcy case (Count 7).
Cole undisputedly owed PRN a lot of money when
he ﬁled this bankruptcy case. Cole’s debt to PRN, however, was not liquidated as of the petition date. In
Count 7, PRN asked the Court to liquidate PRN’s
claim. But PRN proved no speciﬁc amount due by Cole.
PRN ﬁled a proof of claim for $17,342,863.85.53
Rossman testiﬁed that she would “agree” to an overall
debt due to PRN of $14,919,632.63.54 PRN, however,
provided no documentation supporting that amount.
Although the Court determines that Cole is liable to
PRN for some substantial amount, the Court still
needs to liquidate the exact amount due for distribution purposes.
PRN requested that the Court liquidate its claim
in this proceeding only if the Court determined that
53
54

PRN Ex.223, Adv. Doc. No. 326-3.
Trial Tr. 871:6 – 874:17.

S. App. 25
the debt owed to PRN was nondischargeable.55 Because
the Court has determined the debt owed to PRN is dischargeable, the parties agree that the Court can liquidate PRN’s claim in the main bankruptcy case when it
rules on Cole’s pending claim objection.56 Count 7 is
therefore moot.
V.

PRN failed to prove Cole concealed assets
intending to hinder, delay, or defraud creditors under §§ 727(a)(2)(A) & (B) (Counts 8
and 9).

In Counts 8 and 9, PRN primarily points to two
actions by Cole—one taken before the bankruptcy was
ﬁled and one taken after—that it says warrant denying Cole his discharge under § 727(a)(2)(A) and (B).57
55

Pl.’s Reply to Def.’s Resp. to Order Permitting Parties to
Identify Errors in Prelim. Mem. Op., Adv. Doc. No. 500, at 2.
56
Id. (“The determination of the amount of the claim should
be part of the claim resolution process in the main bankruptcy
case.”); William W. Cole, Jr.’s Resp. to Order Permitting Parties to
Identify Errors in Prelim. Mem. Op., Adv. Doc. No. 496, at 2 (“Liquidation of Plaintiff ’s claim(s) should be determined in the main
case, in which claim objections are pending.”).
57
In its complaint, PRN raises a third action by Cole: failing
to disclose the existence of Cole of Orlando Limited Partnership
and W&T Cole, LLC in response to Question 18 on his Statement
of Financial Affairs (“SOFA”). Third Am. Compl., Adv. Doc. No.
230, at ¶ 205. Cole’s failure to disclose Cole of Orlando and W&T
Cole also was asserted as a basis for PRN’s § 727(a)(4)(A) false
oath claim [Count 11]. Although it goes without saying that a
debtor’s failure to disclose an asset on his SOFA can give rise to a
§ 727(a)(4)(a) claim, at least one court has held that it also can
give rise to a claim under § 727(a)(2)(B) for “concealing” property
of the estate. In re Scott, 172 F.3d 959, 967 – 68 (7th Cir. 1999);

S. App. 26
First, shortly before he ﬁled this bankruptcy case, Cole
subdivided his homestead property into two parcels,
claiming the more valuable parcel as exempt. PRN argues that by failing to disclose that the two parcels had
been one contiguous parcel prepetition, Cole concealed
property from the Chapter 7 Trustee. Second, shortly
after Cole ﬁled this bankruptcy case, he received payments totaling roughly $1 million from his operating
company, Coledev LLC. PRN argues these amounts
were for repayment of shareholder loans. But, according to PRN, Cole concealed the “shareholder loans”
from the Chapter 7 Trustee and his creditors by treating his advances to Coledev as undisclosed equity contributions. The Court concludes that neither action by

6 Collier on Bankruptcy ¶ 727.02[6][b] (16th ed. 2020) (“In Peterson v. Scott (In re Scott), the Court of Appeals for the Seventh
Circuit held that concealment of assets can occur through omission of information from a chapter 11 disclosure statement as well
as concealment through omission from the schedules.”). The beneﬁt to bringing the claim under § 727(a)(2)(B) is that, unlike a
§ 727(a)(4)(A) claim, a creditor need only prove the debtor hindered or delayed the administration of a case—not that he acted
with fraudulent intent. But the creditor still must prove the
debtor intentionally withheld (i.e., concealed) the information
from his schedules. In re Scott, 172 F.3d at 968 (explaining that
“the intentional withholding of relevant information is not sanctioned by the Bankruptcy Code”) (emphasis added). Because, as
discussed in Part VI.E.2 of this Memorandum Opinion, which
deals with PRN’s § 727(a)(4)(A) claim, the Court ﬁnds that Cole
did not intentionally omit Cole of Orlando and W&T Cole from his
SOFA, PRN has failed to prove Cole intentionally withheld or concealed information. Cole’s failure to disclose those entities does
not give rise to a § 727(a)(2)(B) claim.

S. App. 27
Cole warrants denying him his discharge under
§ 727(a)(2)(A) or (B).
Under § 727(a)(2), a debtor may be denied a discharge if, intending to hinder, delay, or defraud his
creditors, he transfers or conceals property within one
year before ﬁling for bankruptcy or if he transfers
property of the estate after ﬁling for bankruptcy:
The court shall grant the debtor a discharge,
unless . . . the debtor, with intent to hinder, delay, or defraud a creditor . . . has transferred
. . . or concealed . . . property of the debtor,
within one year before the date of the ﬁling of
the petition; or property of the estate, after the
date of the ﬁling the petition. . . .58
For the Court to deny a debtor his discharge under
§ 727(a)(2)(A), the party objecting to the debtor’s discharge must show that the act complained of: (1) was
done within one year before the petition date; (2) was
done with actual intent to hinder, delay, or defraud a
creditor, (3) was done by the debtor, and (4) consisted
of transferring, removing, destroying, or concealing
the debtor’s property.59 The elements for a claim under § 727(a)(2)(B) are identical, except that the party
58

11 U.S.C. § 727(a)(2)(A) & (B).
Jennings v. Maxﬁeld (In re Jennings), 533 F.3d 1333, 1339
(11th Cir. 2008); see also Caterpillar, Inc. v. Gonzalez (In re Gonzalez), 302 B.R. 745, 752 (Bankr. S.D. Fla. 2003) (explaining that
“[i]n order to prevail against the Debtor on its § 727(a)(2)(A)
claim, the Plaintiff must prove two things: (a) assets of [the
Debtor] were transferred, removed, destroyed, mutilated, or concealed, and, if proven, (b) that the Debtor had an intent to hinder,
delay, or defraud his creditors.”).
59

S. App. 28
objecting to the debtor’s discharge must show that the
debtor fraudulently transferred or concealed property
after the bankruptcy case was ﬁled.
To determine whether a debtor fraudulently intended to transfer or conceal property before or after
the petition date, courts can consider the debtor’s actions and circumstantial evidence, including the traditional “badges of fraud.” Badges of fraud, which are
strong indicators of fraudulent intent, include: (1) the
lack or inadequacy of consideration for the property
transferred; (2) a family or close relationship between
the parties; (3) whether the transferor retained possession, control, use, or the beneﬁt of the transferred property; (4) the transferor’s ﬁnancial condition before and
after the transfer; (5) the cumulative effect of the
transaction and course of conduct after the onset of ﬁnancial difﬁculties or threat of suit; and (6) the general
chronology and timing of events.60
PRN must prove its § 727(a)(2)(A) and (B) claims
by a preponderance of the evidence.61 PRN failed to
meet its burden of proof because PRN failed to prove
that Cole concealed property by subdividing his homestead or by fraudulently characterizing shareholder
loans as equity contributions.

60

Ingersoll v. Kriseman (In re Ingersoll), 124 B.R. 116,
121 – 22 (M.D. Fla. 1991).
61
In re Jennings, 533 F.3d at 1339 (“A party who objects to a
discharge has the burden to prove the objection by a preponderance of the evidence.”) (citing Grogan v. Garner, 498 U.S. 279,
289 – 91 (1991)).

S. App. 29
A. Cole did not conceal property by subdividing his homestead prepetition.
In 2001, Cole and his wife, Terre, bought 2.95 acres
of lakefront property in Maitland, Florida.62 Part of the
land was submerged. They built a massive 10,000square-foot home on the dry land, along with a dock
and a boathouse.63 On June 5, 2015, just weeks before
Cole ﬁled for bankruptcy, he and his wife signed a deed
dividing the 2.95 acres into two parcels: .765 acres of
Improved Land containing the home, dock, and boathouse; and 2.185 acres of Unimproved Land with no
road access and mostly submerged lake property.
When Cole ﬁled for bankruptcy, he listed both the
Improved and Unimproved Land on his schedules.
Cole valued the Improved Land at $2.5 million;64 the
Unimproved Land was valued at $1,000. Cole claimed
the Improved Land as exempt homestead.65
PRN and the Chapter 7 Trustee objected to Cole’s
subdivision of the 2.95-acre parcel into .765 acres of
Improved Land and 2.185 acres of Unimproved Land
62

PRN Ex. 205, Adv. Doc. No. 325-35. Title to the property
was in the name of William W. Cole, Jr. and Theresa Laura Cole,
Co-Trustees of the William W. Cole, Jr. Family Trust, dated September 18, 1997, as amended and restated on the 5th day of June
2002.
63
This summary is paraphrased from the district court’s decision afﬁrming Judge Jackson’s decision on the Chapter 7 Trustee’s objection to Cole’s claimed exemption of his home. Cole v.
Patton, et al., Case No. 6:19-cv-00699-PGB, Doc. No. 38 at 1 – 3.
64
PRN Ex. 209, Adv. Doc. No. 325-39, at 4 – 5.
65
Id.

S. App. 30
as a blatant attempt to reduce the size of the parcel to
keep it within the Florida Constitution’s one-half-acre
limit on homestead property, which would allow Cole
to exempt (and therefore keep) the valuable bit and
relinquish the worthless remainder to his bankruptcy
estate.66 After much litigation, on April 4, 2019, Bankruptcy Judge Jackson partially sustained the objections to Cole’s homestead exemption.67 Judge Jackson’s
ruling allowed the Chapter 7 Trustee to ignore the “illegal lot split” and convey the entire 2.95 acres to a
third-party buyer, while allowing Cole to exempt 16.9%
(.5 acres out of the total 2.95 acres) of the proceeds.
The Trustee later sold the house to a third party
for $2,250,000,68 which is close to the $2.5 million estimated value Cole listed on his schedules. Because the
Trustee sold the entire 2.95 acres, the estate received
66

Objection to Debtor’s Claimed Homestead Exemption, Case
No. 6:15-bk-06458-KSJ, Doc. No. 104; Objection to Debtor’s Claim
of Homestead Exemption, Case No. 6:15-bk-06458-KSJ, Doc. No.
116.
67
Memorandum Decision Sustaining, In Part, Objections to
Debtor’s Claim of Exemption, Case No. 6:15-bk-06458-KSJ, Doc.
No. 788; Order Sustaining, In Part, Objections to Debtor’s Claim
of Exemption, Case No. 6:15-bk-06458-KSJ, Doc. No. 791. On December 20, 2019, the district court afﬁrmed Judge Jackson’s ruling. Cole v. Patton, et al., 6:19-cv-00699-PGB, Doc. No. 38. The
Eleventh Circuit, as discussed below, has since afﬁrmed the district court. Cole v. PRN Real Estate & Invs., Ltd., 2020 WL
5784873, at *6 (11th Cir. Sep. 29, 2020).
68
Joint Motion and Stipulation Regarding Sale of Homestead Property, Main Case No. 6:15-bk-06458-KSJ, Doc. No. 623;
Order Granting Joint Motion and Stipulation Regarding Sale of
Homestead Property, Main Case No. 6:15-bk-06458-KSJ, Doc. No.
632; Trial Tr. 1372:5 – 21.

S. App. 31
the same amount it would have received if Cole had
never subdivided the 2.95-acre parcel. Even so, PRN
claims Cole should not receive a discharge because he
engaged “in a scheme to conceal the value of the Property by making it appear that the alleged homestead
property” was limited to the Improved Land.69 PRN
contends Cole concealed property—and therefore may
not have a discharge—because he did not indicate that
the 2.95 acres of land was one contiguous parcel until
shortly before the bankruptcy ﬁling.
To be sure, Cole’s attempt to subdivide the 2.95
acres was misleading. The Eleventh Circuit Court of
Appeals said as much—upholding a ﬁnding that Cole
“misleadingly manipulated his homestead exemption”—in afﬁrming a district court order upholding
Judge Jackson’s original ruling.70 Still, I ﬁnd PRN cannot prevail on its § 727(a)(2)(A) claim because PRN
failed to prove that Cole concealed anything.
To “conceal” requires a debtor to hide an interest
in property yet continue to reap the beneﬁts of ownership.71 Here, Cole publicly disclosed both the Improved
Land and the Unimproved Land on his schedules. And
he told the Chapter 7 Trustee about the subdivision of
the 2.95-acre parcel the ﬁrst time he met her.72 So Cole

69

Pl.’s Post-Trial Brief, Adv. Doc. No. 435 at 4.
PRN Real Estate & Invs., 2020 WL 5784873, at *5 – 6.
71
Johnson v. Greene (In re Greene), 340 B.R. 93, 98 (Bankr.
M.D. Fla. 2006).
72
Trial Tr. 1368:12 – 1369:8.
70

S. App. 32
did not conceal the property or the fact that he subdivided it.
Even if one could reword the statue to provide that
a debtor could lose a discharge because he concealed
the “value” of an asset while still fully disclosing it,
Cole did not conceal the 2.95-acre parcel’s value. He estimated the value for both the Improved Land and Unimproved Land at $2,501,000, which is close to the
price it sold for three years later ($2,250,000).
Because PRN failed to prove that Cole transferred
or concealed property within one year before ﬁling for
bankruptcy, PRN cannot prevail on its § 727(a)(2)(A)
claim. Cole is entitled to judgment in his favor on
Count 8.
B. Cole did not conceal assets by characterizing advances to Coledev, LLC as
equity contributions rather than shareholder loans.
Cole founded Coledev LLC on October 3, 2012.73
He and his wife own 99% of the company as tenants by
the entireties. His son, Adam, owns the remaining 1%.
Cole disclosed the creation of Coledev, which was the
primary operating business entity he used from 2012
onwards, to PRN before it was legally formed.74 From

73
74

309-1.

PRN Ex. 154, Adv. Doc. No. 324-49.
Trial Tr. 478:21 – 481:19; Cole Ex. 101, Adv. Doc. No.

S. App. 33
Coledev’s inception, Cole “made millions of dollars of
advances” to the company.75
In reviewing three years of Coledev’s daily accounting entries, it is apparent monies freely ﬂowed
between Cole and Coledev, often in large amounts. Cole
would make large advances to and then receive large
payments from Coledev, likely when projects were completed. For example, in 2013, shareholders advanced
$751,400 to Coledev; that same year, shareholders received distributions totaling $209,400. This same pattern continued in 2014 and 2015.
On July 26, 2015, the day before this bankruptcy
case was ﬁled, ﬁnancial records show Coledev had a
balance due to shareholders of $1,018,544.92.76 After
the bankruptcy was ﬁled, Cole stopped advancing
money to Coledev. But shareholders continued to receive more than $1 million in post-petition distributions.77 By December 31, 2015, Coledev’s account

75

Adv. Doc. No. 435 at 7 – 8; PRN Ex. 41, Adv. Doc. No. 32010, at 27; PRN Ex. 42, Adv. Doc. No. 320-11, at 64 – 65; PRN Ex.
43, Adv. Doc. No. 320-12, at 44 – 45.
76
PRN Ex. 43, Adv. Doc. No. 320-12, at 45. PRN argues these
distributions necessarily constitute property of this bankruptcy
estate. But that is not accurate. Cole claimed his ownership interest in Coledev exempt because he and his non-ﬁling spouse jointly
own 99% of the company as tenants by the entireties. If accurate,
and no joint creditors exist, the distributions would not be property of the estate.
77
Id. The exact amount is $1,005,952.84. But it appears that
some portion of these distributions may have been for reimbursements or paid to Adam Cole, Cole’s son and 1% owner of Coledev.

S. App. 34
labeled “shareholder loans payable” showed a balance
due to shareholders of $17,669.08.
Cole testiﬁed the advances he made to Coledev
were capital contributions.78 Cole’s testimony was bolstered by the fact that no promissory notes exist;79 no
interest accrued;80 and Coledev’s 2012 and 2013 federal tax returns reﬂect that the monies Cole advanced
to Coledev were “additional paid-in capital.”81 And on
June 30, 2015, less than one month before he ﬁled for
bankruptcy, Cole gave American Momentum Bank
copies of Coledev’s 2013 and 2014 financial statements, which showed no shareholder loans by Cole to
Coledev.82
When Cole ﬁled for bankruptcy, he accurately disclosed his 99% membership interest in Coledev on
Schedule B and noted it was jointly owned with his
wife as tenants by the entireties with an undetermined
value.83 PRN argues this disclosure is inadequate because, in PRN’s view, Cole’s millions of dollars in advances to Coledev were really shareholder loans that
should have been separately disclosed on his schedules
as “shareholder loans payable.”
78

Trial Tr. 272:4 – 16; 272:9 – 12; 283:4 – 22; 304:22 – 307:5;
318:11 – 327:17.
79
Trial Tr. 319:19 – 22; 321:3 – 12.
80
Trial Tr. 319:23 – 320:3; 321:17 – 19.
81
Cole Ex. 141, Adv. Doc. No. 311-1, at 7; Cole Ex. 142, Adv.
Doc. No. 311-2, at 8; Trial Tr. 319:2 – 8; 320:9 – 23.
82
Cole Ex. 193, Adv. Doc. No. 312-18, at 8.
83
PRN Ex. 209, Adv. Doc. No. 325-39, at 7.

S. App. 35
In support of its argument that the advances really were shareholder loans and not capital contributions, PRN relies on Coledev’s accounting records, kept
using QuickBooks software, treating the advances as
“shareholder loans payable.” And PRN highlights
Coledev’s 2014 and 2015 federal tax returns, ﬁled after
September 15, 2015, which treat the advances as
shareholder loans for the ﬁrst time.84 PRN also notes
Coledev’s Operating Agreement requires capital contributions to be made in proportion to each member’s
interest. Because Cole kept making advances while his
wife and son, Adam Cole (a 1% member), did not, PRN
argues that the membership percentages should have
shifted if the advances were capital contributions.85
But the membership interests were never altered. Finally, PRN notes that Mrs. Cole testiﬁed that she believed the advances were shareholder loans, not capital
contributions.86
Let’s put PRN’s argument in context. Everyone
agrees that Coledev was Cole’s primary operating company starting in 2012; Cole owns 99% of the shares as
a member jointly with his wife as tenants by the entireties; substantial monies (in the millions of dollars)
ﬂowed freely between Cole and Coledev; and, after this
bankruptcy case was ﬁled, shareholders received a little more than $1 million in distributions. It is also undisputed that Coledev’s federal tax returns for 2012
84

PRN Ex. 252, Adv. Doc. No. 352-1, at 9; PRN Ex. 253, Adv.
Doc. No. 352-2, at 8.
85
PRN Ex. 154, Adv. Doc. No. 324-49, at 5 – 6, §§ 3.3 & 3.8.
86
Terre Cole Dep., Adv. Doc. No. 403-2, 178:11 – 25.

S. App. 36
and 2013 reﬂect Cole’s advances to Coledev as capital
contributions, while Coledev’s 2014 and 2015 federal
tax returns, ﬁled months after the bankruptcy, treat
the advances as shareholder loans, as do the company’s
QuickBooks ﬁnancial records.
However, the advances were characterized, Cole
disclosed his ownership interest in Coledev in his
schedules as jointly owned with his wife as tenants by
the entireties.87 So all parties knew of his ownership
interest. The only issue is whether Cole, by classifying
his interest as solely equity based on capital contributions instead of as “shareholder loans payables,”
87

The Chapter 7 Trustee objected to Cole’s exemption of his
TBE ownership interest in Coledev. Objection to Debtor’s Claim
of Exemptions (tenancy by entireties claim), Doc. No. 115. That
objection appears to be unresolved. PRN also is trying to prove a
claim against Terre Cole in the pending state court action, which
could establish a joint claim by PRN against Cole and his wife,
allowing PRN to collect the joint claim against property Cole and
his wife own as tenants by the entireties, including Coledev. In re
Cooper, 2018 WL 11206027, at *2 (Bankr. M.D. Fla. Aug. 13,
2018) (“Under Florida law, property held as TBE belongs to neither spouse individually. As a result, TBE property ‘is exempt
from process to satisfy debts owed to individual creditors of either
spouse.’ TBE property, however, ‘is not exempt from process to
satisfy joint debt of both spouses.’ ”); In re Daniels, 309 B.R. 54, 56
(Bankr. M.D. Fla. 2004) (“Accordingly, property held as tenants
by the entirety can only be reached to satisfy a husband and wife’s
joint debts and cannot be reached to satisfy the obligations of only
one spouse.”). And, as requested by the Chapter 7 Trustee in
pending Adversary Proceeding No. 17-ap-112, Coledev’s post-petition distributions to its members as “shareholder loans” could
be property of this bankruptcy estate and subject to turnover. The
Court, however, need not resolve any of these open issues relating
to the “shareholder loans” in determining whether Cole is entitled
to receive a discharge.

S. App. 37
concealed property of the bankruptcy estate intending
to hinder, delay, or defraud his creditors. I ﬁnd he did
not.
At trial, there was a battle of the experts arguing
that the contributions were capital infusions or loans.88
These experts, whose testimony I considered and will
admit, are highly esteemed professionals who can expertly opine about what constitutes a capital contribution versus a shareholder loan. But, in the end, it
makes no difference whether Coledev treated the advances as capital contributions or as shareholder loans
because in a closely held corporation those labels are
often meaningless.89

88

Susan M. Smith testified as PRN’s expert. Trial Tr.
1040:15 – 1202:23. Robert B. Morrison testiﬁed as Cole’s expert.
Trial Tr. 1220:6 – 1366:11. Each party has objected to the other
party’s expert. Adv. Doc. Nos. 353, 369 & 370; Trial Tr. 748:2 –
753:10; 1041:3 – 5; 1215:23 – 1219:5; 1256:17 – 1258:1. I will overrule both parties’ objections and consider the expert testimony of
both Ms. Smith and Mr. Morrison. PRN’s Second Amended Motion to Exclude Expert Testimony of Robert Morrison (Adv. Doc.
No. 353) is denied.
89
See, e.g., Truett v. Dep’t of Revenue, 2018 WL 1306645 (Or.
T.C. March 13, 2018) (explaining that the “distinction between a
shareholder loan and a capital contribution rests on the question
of ‘whether the investment, analyzed in terms of its economic reality, constitutes risk capital entirely subject to the fortunes of
the corporate venture or represents a strict debtor-creditor relationship’ ” and that “[i]n a closely held corporation, the labels applied to the transaction by the shareholder and in the company’s
books ‘lose their meaningfulness’ because ‘the same persons occupy both sides of the bargaining table’ “) (quoting Fin Hay Realty
Co. v. United States, 398 F.2d 694, 697 (3d Cir. 1968)) (alteration
in original) (citation omitted).

S. App. 38
That’s why when the Trustee became aware of the
“shareholder loan” versus “capital contribution” issue
after receiving Coledev’s 2014 and 2015 federal tax returns,90 she was not troubled by Cole’s use of the equity
label. The Trustee believed, based on what her own
professionals told her, that the distinction between
“shareholder loans” and “capital contributions” is, as a
practical matter, a distinction without a difference because those terms are often interchangeable in the real
world:
In a nutshell, she said that when you have situations similar to this that it’s not unusual for
a chunk of money to be labeled equity one day
or capital account one day or whatever and
shareholder loan the next and that they are
interchangeable, and it is completely up to the
company’s principals.91
Just like any operating company, a non-debtor
business continues to operate after a shareholder ﬁles
90

Trial Tr. 1377:19 – 21.
Trial Tr. 1377:8 – 15. PRN complains that Judge Jackson
acknowledged that the Trustee’s testimony regarding what her
professionals told her is hearsay. Pl.’s Resp. Pursuant to Order
Permitting Parties to Identify Errors in Prelim. Memorandum
Opinion, Adv. Doc. No. 495, at 7. This is not so. Judge Jackson
allowed the Trustee’s testimony over PRN’s hearsay objection and
indicated she later would decide whether to give the testimony
any weight. I conclude the testimony is admissible, not for the
truth of the matter of what the Trustee’s expert said, but rather
because it goes to the Trustee’s state of mind. She simply did not
ﬁnd it signiﬁcant that Cole did not disclose the debt as a shareholder loan versus a capital contribution. It did not affect her administration of this case.
91

S. App. 39
for bankruptcy. Even small, closely held companies,
like Coledev, operate post-bankruptcy. The Chapter 7
Trustee knew about Coledev, could inquire as to the
status of its operations, and, if appropriate, object to
Cole’s claimed TBE exemption of Coledev, which she
did.92 Indeed, the Chapter 7 Trustee conﬁrmed Cole
was cooperative and supplied all the information and
documents she requested.93
PRN has failed to demonstrate that by characterizing his advances to Coledev as capital contributions
rather than shareholder loans, Cole concealed any
property after this bankruptcy case was ﬁled intending to hinder, delay, or defraud his creditors under
§ 727(a)(2)(B). Cole is entitled to judgment in his favor
on Count 9.
VI. PRN failed to prove Cole made any “false
oaths” under § 727(a)(4)(A) (Count 11) that
would prevent him from receiving a discharge.
In Count 11, PRN alleges Cole failed to disclose
assets on his bankruptcy schedules and Statement of
Financial Affairs (“SOFA”). PRN asserts that Cole
materially misstated his income on Schedule I; materially misstated the value of his interest in CRS Costa,
Inc.; materially misstated his ownership interest in
Coledev, LLC; and fraudulently omitted 29 business

92
93

Main Case No. 6:15-bk-6458-KSJ, Doc. No. 115.
Trial Tr. 1370:9 – 20.

S. App. 40
entities on his SOFA, including Cole of Orlando.94 PRN
also contends that Cole fraudulently made false oaths
regarding his homestead.95
Chapter 7 debtors “have an unconditional, absolute obligation to make full disclosure of all matters
relevant to the administration of the estate.”96 As Chief
Judge Delano observed in In re Peckham, “the bankruptcy schedules and statement of ﬁnancial affairs
do not ask the debtor and debtor’s counsel to make assessments of what they think is important; instead, a
debtor must fully, completely, honestly, and accurately
list all assets, creditors, and ﬁnancial affairs.”97 “Policy
considerations mandate that the requirement to list all
assets and liabilities is an absolute obligation of those
seeking discharge of their debts.”98
Failure to disclose—or materially misstating the
value of—assets constitutes a false oath, which is a
basis for denying a debtor his or her Chapter 7 discharge.99 Bankruptcy Code § 727(a)(4)(A) provides that
94

PRN Ex. 209, Adv. Doc. No. 325-39; PRN Ex. 210, Adv.
Doc. No. 325-40.
95
Pl.’s Resp. Pursuant to Order Permitting Parties to Identify
Errors in Prelim. Mem. Op., Adv. Doc. No. 495, at 2 – 4.
96
Heidkamp v. Whitehead (In re Whitehead), 278 B.R. 589,
594 (Bankr. M.D. Fla. 2002) (emphasis added).
97
In re Peckham, 2013 WL 5984467, at *4 (Bankr. M.D. Fla.
Nov. 12, 2013).
98
In re Whitehead, 278 B.R. at 594.
99
Swicegood v. Ginn, 924 F.2d 230, 232 (11th Cir. 1991) (“Deliberate omissions by the debtor may also result in the denial of a
discharge” under § 727(a)(4)(A).”) (quoting Chalik v. Mooreﬁeld,
748 F.2d 616, 618 (11th Cir. 1984)); Whigham v. United Asset

S. App. 41
a debtor may be denied a discharge if he or she “knowingly and fraudulently . . . made a false oath or account” in connection with a case.100 To warrant denial
of a discharge based on a debtor’s false oath, the objecting party must prove the false oath was (1) fraudulently made; and (2) material.101
Fraudulent intent usually is inferred by examining the totality of circumstances surrounding the
debtor’s bankruptcy case.102 A fact is “material,” and
failing to disclose it sufﬁcient to bar a debtor’s discharge, “if it bears a relationship to the bankrupt’s
business transactions or estate, or concerns the discovery of assets, business dealings, or the existence and
disposition of his property.”103

Holdings Residential, LLC (In re Whigham), 770 F. App’x 540,
545 – 46 (11th Cir. 2019) (unpublished decision).
100
11 U.S.C. § 727(a)(4)(A).
101
Protos v. Silver (In re Protos), 322 F. App’x 930, 933 (11th
Cir. 2009) (unpublished decision); Swicegood v. Ginn, 924 F.2d at
232.
102
Phillips v. Epic Aviation (In re Phillips), 476 F. App’x 813,
816 n.1 (11th Cir. 2012) (unpublished decision); Meininger v.
Khanani (In re Khanani), 374 B.R. 878, 888 (Bankr. M.D. Fla.
2005) (explaining that the “requisite intent may be established by
the objecting party through inference from the facts”) (citing 6
Collier on Bankruptcy ¶ 727.04[1][b]).
103
Chalik v. Mooreﬁeld (In re Chalik), 748 F.2d 616, 618
(11th Cir. 1984).

S. App. 42
A. Cole accurately disclosed his prepetition income.
On his Schedule I, Cole lists $3,500 in monthly
gross wages, plus $433 per month in dividend income,
resulting in annual gross wages and dividend income
of $47,196.104 In response to Question 1 on his SOFA,
Cole lists $0 in income from employment in 2013 and
$35,000 in employment income in 2014. PRN asserts
that Cole materially misstated his income on his
Schedule I and SOFA because he had substantially
more income in 2013 and 2014.
PRN bases its argument on Cole’s 2013 and 2014
federal tax returns, which show $360,517 in gross income for 2013 and $1,042,362 in gross income for
2014.105 PRN also points to a ﬁnancial statement Cole
gave to Ally Bank in connection with a car lease listing
his gross income at $475,000.106
Cole, however, says PRN is comparing “apples to
oranges.” On the one hand, Cole’s 2013 and 2014 tax
returns, and the ﬁnancial statement he gave Ally
Bank, show Cole’s overall “income” in 2013 and 2014.
But Schedule I and Cole’s answer to SOFA Question 1
both ask for more limited information about Cole’s
“employment income” or “gross wages or salary.” PRN’s
104

PRN Ex. 209, Adv. Doc. No. 325-39, at 21 – 22.
PRN Ex. 36, Adv. Doc. No. 320-5, at 5; PRN Ex. 37, Adv.
Doc. No. 320-6, at 5; Trial Tr. 221:2 – 222:12; 223:21 – 224:15.
PRN ignores the $7 plus million carry forward loss claimed by
Cole in tax years 2013 and 2014.
106
PRN. Ex. 238, Adv. Doc. No. 326-18. The ﬁnancial statement is dated March 6, 2015.
105

S. App. 43
argument is almost ridiculous insofar as it fails to distinguish between gross income versus wages, particularly when most of Cole’s income is derived from proﬁts
earned on successful real estate deals—not wages.
Contrary to PRN’s claim, Cole accurately and consistently listed his actual salary or wages from Coledev
in 2013 and 2014 on his tax returns and his bankruptcy ﬁlings.107 Cole listed $0 in wages from Coledev
on both his 2013 tax return108 and in response to SOFA
Question 1.109 Cole listed $39,699 in wages from
Coledev on his 2014 tax return110 and $35,000 in response to SOFA Question 1. He estimated $3,500 per
month in wages from Coledev for 2015 on his Schedule
I.111 Based on that estimate, Cole would have received
roughly $24,500 in wages by the time he ﬁled for bankruptcy in July 2015. In response to Question 1 on his
SOFA, Cole conﬁrmed he had received $16,147.50 in
wages from Coledev before ﬁling for bankruptcy on
July 27, 2015.112
Cole’s gross income is a vastly different calculation
necessitating complex and lengthy tax returns totaling
68 pages in 2013 and 41 pages in 2014. Cole’s reference
to annual income—as opposed to wages—of $475,000
on a car lease application in March 2015 is entirely
107
108
109
110
111
112

Trial Tr. 309:13 – 310:19; 313:19 – 314:17; 315:11 – 317:20.
PRN Ex. 36, Adv. Doc. No. 320-5, at 5, line 7.
PRN Ex. 210, Adv. Doc. No. 325-40, at 2.
PRN Ex. 37, Adv. Doc. No. 320-6, at pg. 5, line 7 & pg. 40.
PRN Ex. 209, Adv. Doc. No. 325-39, at 21.
PRN Ex. 210, Adv. Doc. No. 325-40, at 2.

S. App. 44
consistent with his bankruptcy ﬁlings and prior tax returns. Cole accurately reﬂected his gross wages and
employment income in his bankruptcy ﬁlings. PRN
therefore proved no false oath by Cole relating to this
income.
B. Cole accurately disclosed his interest
in CRS Costa, Inc.
In 2006, Cole and Rossman (joined by her sisters)
embarked on a large real estate project in Costa Rica,
forming CRS Costa, Inc. as the corporate entity for the
project. Cole owned a 46.33% interest in CRS Costa,
Inc.113 When he ﬁled for bankruptcy, Cole listed his interest in CRS Costa, Inc. as having a value of $0.114
Recently, the Chapter 7 Trustee tried to sell Cole’s
interest in CRS Costa, Inc. to PRN for $10,000.115 Cole
objected, contending CRS Costa, Inc. was worth more
than $10,000.116 And during settlement discussions
113

For background information, see the Summary Prepared
by Nancy A. Rossman for Sale of Interest in CRS Costa, Inc. Stock
ﬁled in the main bankruptcy case. Main Case No. 6:15-bk-06458,
Doc. No. 919. The Court makes no factual ﬁndings on the accuracy
of this information, but it is helpful to glean a general understanding of CRS Costa, Inc.
114
PRN Ex. 209, Adv. Doc. No. 325-39, at 8; PRN Ex. 210,
Adv. Doc. No. 325-40, at 11.
115
Motion to Sell Property of the Estate Free and Clear and
Adopt Sale and Bidding Procedures, Main Case No. 6:15-bk06458, Doc. No. 905.
116
Debtor’s Limited Objection to Trustee’s Motion to Sell
Property of the Estate Free and Clear, Main Case No. 6:15-bk06458, Doc. No. 910.

S. App. 45
with the Chapter 7 Trustee, Cole apparently claimed
his interest in CRS Costa, Inc. was worth more than
$10,000, though no proof of any speciﬁc higher valuation exists.117
PRN did not allege in its Third Amended Complaint that Cole materially misstated the value of CRS
Costa, Inc.118 Rather, PRN appears to have surprised
Cole at trial with this assertion, perhaps to gain leverage to encourage the Chapter 7 Trustee to sell Cole’s
interest in CRS Costa, Inc. to PRN for the nominal sum
$10,000. Because the Court does not condone these
surprise tactics, I will disregard any testimony relating
to the valuation of Cole’s interest in CRS Costa Inc.119
Even if I did consider the testimony, however, I
easily conclude that Cole made no false oath. CRS
Costa was a massive project in Costa Rica that started
in 2006—nearly a decade before Cole ﬁled this bankruptcy case. It remains unﬁnished, and it is encumbered by substantial debt, which was incurred to pay
development costs, like installing water and other improvements.120 Cole has not been directly involved in
the project since at least 2014, though he recently requested additional ﬁnancial information on the status
117

Trial Tr. 1422:8 – 1426:6.
Third Am. Compl., Adv. Doc. No. 230.
119
Speciﬁcally, Cole requests the Court to disregard Rossman’s testimony at Trial Tr. 859:6 – 868:14, which is appropriate.
The Court will not consider this testimony.
120
Summary Prepared by Nancy A. Rossman for Sale of Interest in CRS Costa, Inc. Stock, Main Case No. 6:15-bk-06458,
Doc. No. 919.
118

S. App. 46
of the project. Given all this, his estimate of a $0 value
for his stock is reasonable and in no way deceived or
discouraged the Chapter 7 Trustee from administering
the asset. PRN proved no false oath by Cole relating to
the value of CRS Costa.
C. Cole accurately disclosed the value of
Coledev, LLC.
In his schedules, Cole claimed the value of his operating company, Coledev, LLC, was “undetermined.”121
PRN argues this is a false oath because Cole had given
American Momentum Bank a ﬁnancial statement valuing Coledev at almost $4 million on July 24, 2015,122
just days before this bankruptcy case was ﬁled. However, Cole testiﬁed the value he gave to American Momentum Bank just days before bankruptcy was an
estimate of the capital contributions he and his wife
made to Coledev—not a valuation of Coledev as a going
concern business.123 That analysis would have taken
much longer and would have resulted in a drastically
different value. I ﬁnd Cole’s trial testimony on that
score credible and convincing. PRN therefore failed to
prove Cole made a false oath of the value of Coledev,
LLC.
121

PRN Ex. 209, Adv. Doc. No. 325-39, at 7.
PRN Ex. 80, Adv. Doc. No. 323-14, at 5. The exact value
listed was $3,985,000. On July 22, 2015, Debtor had given American Momentum Bank an earlier ﬁnancial statement valuing
Coledev at slightly less – $3,242,391. PRN Ex. 77, Adv. Doc. No.
323-11, at 3.
123
Trial Tr. 323:3 – 326:5.
122

S. App. 47
D. Cole did not misstate the amount he
owes PRN.
Cole undisputedly owed PRN a lot of money when
he ﬁled this bankruptcy case. In his bankruptcy schedules, he listed the amount due to PRN as contingent,
unliquidated, and disputed in an “undetermined”
amount.124 PRN contends this is a false oath because
Cole represented in the parties’ Settlement Agreement
he owed PRN more than $30 million.125 In 2013, Cole
again stated he owed a “contingent” liability to PRN of
$32.8 million.126 PRN’s argument that Cole misstated
the debt he owed PRN falls ﬂat for several reasons.
For starters, Cole’s statements of the debt due to
PRN are dated, having been made at least two years
before ﬁling this bankruptcy case. And PRN ignores
the $10 million plus that PRN received after June
2012, when the parties completed joint real estate ventures, which would have reduced or at least altered the
calculation of the debt.
Most telling, however, is that even Rossman could
not accurately liquidate the amount due to PRN. PRN
ﬁled Claim 6-1 for $17,342,863.85.127 She testiﬁed that
PRN had advanced at least $419,385.33 to Cole after
June 2012, but she would “agree” to an overall debt due
124

PRN Ex. 209, Adv. Doc. No. 325-39, at 16.
PRN Ex. 2, Adv. Doc. No. 318-2, at 24 – 25. Debtor also
testiﬁed in the pending state court action he owed PRN over $30
million. Trial Tr. 73:4 – 75:13.
126
Cole Ex. 193, Adv. Doc. No. 312-18, at 4.
127
PRN Ex. 223, Adv. Doc. No. 326-3.
125

S. App. 48
to PRN of $14,919,632.63.128 She offered no supporting
documentation for this “agreed” debt, although she did
examine an unadmitted calculation she prepared.
Cole’s likely substantial debt to PRN was not liquidated on the date this bankruptcy case was ﬁled. And
it remains unliquidated today. Based on Rossman’s
testimony alone, the Court would find that Cole accurately listed his debt to PRN as “undetermined,” contingent, unliquidated, and disputed. PRN therefore
proved no false oath by Cole for the amount he owed
PRN.
E. Cole’s omission of business entities
does not prevent him from receiving a
discharge.
SOFA Question 18 asks individual debtors to list
all business interests they had during the six years before ﬁling bankruptcy. The question, which is broad, requires the debtor to include any business in which the
debtor was an officer, director, partner, managing executive, or sole proprietor, and any business in which
the debtor held 5% or more of the ownership interest.
In answer to Question 18, Cole listed 14 such businesses.129 But, in Exhibit S to its Third Amended Complaint, PRN lists 28 business entities it claims Cole
failed to list in response to SOFA Question 18.130

128
129
130

Trial Tr. 871:6 – 874:17.
PRN Ex. 210, Adv. Doc. No. 325-40, at 11.
Third Am. Compl., Adv. Doc. No. 230-6, Ex. S.

S. App. 49
1. All but two of the entities that Cole
failed to disclose did not have to be
disclosed and are not material.
Twenty-six of the entities that Cole failed to disclose either were not material or did not have to be disclosed. They fall into three obvious categories:
1.

Community Associations.131 Eleven of
the entities were community associations. Cole did not believe these nonprofit community associations ﬁt the definition of “business.”132 While he likely
was an ofﬁcer or director of some of these
associations connected to his on-going
projects, he had no pecuniary interest in
the associations. The Court ﬁnds their inclusion was not required or their omission
not material.

2.

Projects Relinquished to PRN.133 Five
of the “omitted” entities were entities that
Cole transferred to PRN under the Settlement Agreement. After 2012, he had no
further connection to these businesses.
Although perhaps Cole should have listed
these business entities, the fact is he had
no remaining pecuniary interest. The
Court ﬁnds it is disingenuous for PRN to
argue Cole should forfeit his discharge for

131

Third Am. Compl., Adv. Doc. No. 230-6, Ex. S, Nos. 1, 2,
4 – 8, 12, 13, 23 & 25.
132
Trial Tr. 330:15 – 333:10.
133
Third Am. Compl., Adv. Doc. No. 230-6, Ex. S, Nos. 11 &
14 – 17.

S. App. 50
failing to list companies PRN now owns
and controls.
3.

134

Entities Cole Did Not Need to List.134
PRN listed ten business entities that Cole
did not have to list in response to Question 18 on his SOFA.
a.

Atlanta Heritage Homes, LLC (#3)—
This is an older joint project with
PRN. Cole was not an ofﬁcer or director, and the project ended in 2008, before the start of the six-year lookback period.

b.

Devco RCJ Limitada & RCJ Tambor
Limitada (## 9 & 10)—Both these entities were owned by CRS Costa, Inc.,
not Cole. Cole listed his ownership
interest in CRS Costa, Inc. in response to SOFA Question 18.

c.

Arlington Homes, LLC (#18)—This
entity was owned in part by C&G
Real Estate Group, Inc., not Cole.
PRN now controls C&G Real Estate
Group, Inc.

d.

WC&TC Holdings, Inc. (#20)—This
entity ceased operations in 2003, before the start of the six-year lookback period.

e.

William W. Cole Jr. Family Trust
(#21)—This entity is a family trust,

Third Am. Compl., Adv. Doc. No. 230-6, Ex. S, Nos. 3, 9,
10, 18, 20- 22, 24, 27 & 28.

S. App. 51
which is not a business entity required to be disclosed in response to
SOFA Question 18.
f.

S&C Real Property Investments, LLC
(#22)—This entity was owned in part
by Coledev, not Cole. Cole listed his
ownership interest in Coledev in response to SOFA Question 18.

g.

Arlington Realty, Inc. (#24)—Cole had
no interest in this entity.

h.

Deer Run CDD Holdings, Inc. (#27)—
Cole had no interest in this entity.

i.

Coledev Real Estate, LLC (#28)—
This entity was owned by Coledev,
not Cole. Cole listed his ownership
interest in Coledev LLC in response
to SOFA Question 18.

As to these 26 entities, the Court ﬁnds Cole
did not need to list the entity, the omission is not material, or the omission was
inadvertent.
2. Cole did not fraudulently omit Cole
of Orlando Limited Partnership and
W&T Cole, LLC.
The analysis is more complicated as to the two remaining entities—Cole of Orlando Limited Partnership (#29) and its 1% general partner, W&T Cole,

S. App. 52
LLC.135 Cole of Orlando, a Nevada corporation, was
formed in 2002 to hold Cole and his wife’s substantial
personal investments. In 2010, Cole decided to close
the partnership because the couple allegedly no longer
needed a separate (foreign) corporate entity to avoid
Florida’s intangible tax, which had been repealed, and
because the annual operating costs were too high.136 In
2011, as part of winding down Cole of Orlando, Cole
and his wife transferred nearly $4 million in assets directly from a non-exempt account in the name of Cole
of Orlando to themselves as tenants by the entireties.137
The existence of an entity that once held—and
eventually transferred away—$4 million in investments belonging to Cole is material (i.e., it bears a relationship to Cole’s business transactions or estate, or
it concerns the discovery of assets or the existence and
disposition of his property). The Chapter 7 Trustee
acknowledged as much during her testimony.138 After
discovering the $4 million in transfers, the Chapter 7
Trustee sued Cole and his wife in a separate adversary
proceeding to avoid and recover Cole’s interest in the
135

W&T Cole, LLC, was duplicated twice on PRN’s Exhibit S
as Numbers 19 and 26. Cole owned a 49.5% interest in Cole of
Orlando Limited Partnership as did Mrs. Cole.
136
Supp. Tr. 56:13 – 57:4.
137
PRN Exs. 58 – 62, Adv. Doc. Nos. 322-1 – 322-5; Trial Tr.
1064:10 – 1069:16. In 2011, Cole of Orlando transferred $3,968,397.74
to ﬁnancial accounts owned by Cole and Mrs. Cole purportedly as
tenants by the entireties. Debtor had a 49.5% interest in these
transferred funds.
138
Trial Tr.1381:4 – 8

S. App. 53
transfers as fraudulent transfers.139 In that proceeding, I avoided the transfers to return Cole’s interest in
them (when quantiﬁed) for administration in this
Chapter 7 case.140 So omitting Cole of Orlando in response to SOFA Question 18 is material.141
The only question is whether Cole’s failure to
disclose Cole of Orlando was fraudulent and intentional.142 At the original trial back in 2018, Cole
chalked the omission up to an “inadvertent mistake.”
Given the importance of this issue, I allowed Cole to
testify a second time so he could explain the omission
and to allow me to assess his credibility and demeanor.
In his supplemental testimony, Cole suggested
the omission of Cole of Orlando occurred because he
had an interest in several entities named “Cole of ”
139

Lori Patton, as Chapter 7 Trustee v. William W. Cole, Jr.,
et al., Adv. No. 6:17-ap-00112-KSJ, Adv. Doc. No 1.
140
Mem. Op. and Order Granting Trustee’s Mot. for Partial
Summ. J. and Denying Def.’s Mot. for Summ. J., Adv. No. 6:17ap-00112-KSJ, Adv. Doc. No. 92.
141
Conversely, the omission of W & T Cole, LLC was not material. W & T Cole was a 1% member of Cole of Orlando. It never
had any assets, was created to comply with Nevada law, and was
a mere placeholder without any signiﬁcance. All the monies were
held by Cole of Orlando. Given its nonmateriality, no further
analysis is needed on whether its omission was intentional or not.
142
Swicegood v. Ginn, 924 F.2d 230, 232 (11th Cir. 1991)
(“Deliberate omissions by the debtor may also result in the denial
of a discharge” under § 727(a)(4)(A).”) (quoting Chalik v. Mooreﬁeld, 748 F.2d 616, 618 (11th Cir. 1984)); In re Boone, 236 B.R
275, 280 (Bankr. M.D. Fla. 1999) (explaining that an omission due
to inadvertence or carelessness may not sufﬁce to sustain a claim
of false oath).

S. App. 54
something, and he says he just “missed it.”143 Cole also
offered that his lawyer reviewed the Florida Secretary
of State’s records to identify all Cole-related entities.144
Because Cole of Orlando and W&T Cole were Nevada
partnerships, however, they were not listed in the Florida records.145 Cole also pointed out that he listed Cole
of Orlando as a co-obligor on his Schedule H, ﬁled on
August 10, 2015.146 To bolster his claim that the omission was inadvertent—rather than intentional and
fraudulent—Cole testiﬁed that Cole of Orlando had no
valuable assets and that he turned over ﬁnancial records for Cole of Orlando (a K-1, a general ledger, a
check from Goldman Sachs, and bank statements) to
the Chapter 7 Trustee once the omission was discovered.147
PRN argues Cole’s testimony he “inadvertently”
omitted Cole of Orlando is not credible. Cole testiﬁed
he spent over 150 hours completing his bankruptcy
schedules and SOFA.148 That time included reviewing
his 2013 tax return, which was filed in December
2014 or January 2015—just seven months before he
filed this bankruptcy case.149 Cole’s 2013 tax return

143
144
145
146

Supp. Tr. 49:1 – 50:5; 61:5 – 12.
Supp. Tr. 49:1 – 50:5; 61:5 – 18.
Supp. Tr. 49:1 – 50:5; 61:5 – 18.
Supp. Tr. 60:10 – 13; PRN Ex. 209, Adv. Doc. No. 325-39,

at 18.
147
148
149

Supp. Tr. 61:19 – 64:14; 77:1 – 16; 94:2 – 95:7.
Trial Tr. 348:2 – 349:9; Supp. Tr. 31:23 – 32:4.
Supp. Tr. 32:5 – 17; 33:9 – 35:19.

S. App. 55
speciﬁcally lists Cole of Orlando on its schedules.150
PRN argues that, given the time Cole spent preparing
his schedules and that he speciﬁcally reviewed his
2013 tax return, it is unlikely Cole simply forgot to list
Cole of Orlando, the entity that previously held Cole’s
investments totaling more than $4 million. What’s
more, the Court can’t help but notice that, unlike the
case with the other entities Cole failed to disclose, Cole
had something to gain by omitting Cole of Orlando (i.e.,
the potential concealment of fraudulent transfers).
Still, in the end, I ﬁnd that Cole’s omission of Cole
of Orlando was inadvertent—not intentional. Determining whether a debtor acted intentionally and with
fraudulent intent “depends largely upon an assessment of the credibility and demeanor of the debtor,”151
which is why I asked Cole to testify a second time.
Having observed his demeanor, I found Cole’s testimony that he inadvertently omitted Cole of Orlando
credible. During his supplemental testimony, Cole was
not evasive. To the contrary, I found him forthright
and candid. And his testimony that he had intended
to disclose Cole of Orlando, which PRN derided as “selfserving,” was largely consistent with the other evidence in the case, particularly his Schedule H.
150

PRN Ex. 36, Adv. Doc. No. 320-5, at 28.
In re Phillips, 476 F. App’x 813, 816 (11th Cir. 2012) (“Because a determination concerning fraudulent intent depends
largely upon an assessment of the credibility and demeanor of the
debtor, deference to the bankruptcy court’s factual ﬁndings is particularly appropriate.”) (quoting In re Miller, 39 F.3d 301, 305
(11th Cir. 1994)).
151

S. App. 56
Cole initially disclosed Cole of Orlando, which had
been defunct for several years, on his Schedule H.152
At his 341 meeting, Cole disclosed the existence of an
account (with nominal funds) still held by Cole of Orlando.153 And at his Rule 2004 exam, which was essentially a continuation of his 341 meeting,154 Cole
produced a thumb drive containing bank statements
dating back to 2011 that contained the transfers PRN
says Cole was trying to conceal.155 If he was trying to
hide Cole of Orlando, why disclose it on Schedule H?156
And why voluntarily disclose the account at his 341
meeting?
Cole was not trying to “hide” Cole of Orlando’s existence. He simply placed it in the wrong place on his
papers. As the Chapter 7 Trustee testiﬁed, she would
have preferred Cole to also list the entity on SOFA
Question 18 rather than only as a co-obligor on Schedule H, but it did not impact her administration of this
152

Supp. Tr. 60:10 – 13; PRN Ex. 209, Adv. Doc. No. 325-39,

at 18.
153

Supp. Tr. 54:21 – 55:12; 74:18 – 75:1. Although Cole disclosed the account, he never mentioned Cole of Orlando during
the 341 meeting. Supp. Tr. 75:2 – 6.
154
Supp. Tr. 88:25 – 89:19. The Rule 2004 exam took place
less than three months after the 341 meeting: the 341 meeting of
creditors took place on September 2, 2015, Supp. Tr. 73:4 – 23,
while the Rule 2004 exam took place on November 17. Id.
155
Supp. Tr. 94:13 – 96:1.
156
PRN has suggested that Cole may have disclosed Cole of
Orlando on Schedule H – and not in response to SOFA Question
18 – to “throw a trustee and creditors off track.” Based on Cole’s
demeanor while testifying, coupled with the other evidence in the
case, PRN’s theory strikes the Court as fanciful, at best.

S. App. 57
bankruptcy case.157 Cole provided the Trustee with information about Cole of Orlando once it was discovered
he omitted the entity from his SOFA.158
Fraudulent intent usually is inferred from examining the totality of circumstances surrounding the
debtor’s bankruptcy case. Here, the totality of circumstances proves that Cole inadvertently omitted Cole of
Orlando and W&T Cole from his schedules. Based on
the totality of circumstances, including Cole’s demeanor during his supplemental testimony, which I
found credible and believable, I conclude that Cole inadvertently omitted Cole of Orlando and W&T Cole.
The transfers from Cole of Orlando to Cole and his
wife’s TBE accounts were uncovered early on and are
now avoided. No party was prejudiced by Cole listing
Cole of Orlando only on Schedule H and not in response to SOFA Question 18. Nor was the Trustee’s job
made any more difﬁcult by the omission. PRN failed to
prove Cole intentionally and fraudulently omitted Cole
of Orlando from SOFA Question 18.
F. PRN failed to prove Cole made false
oaths regarding his homestead.
In its response to the Court’s Preliminary Memorandum Opinion, PRN argued that the Court overlooked three false oaths Cole made regarding his
homestead—i.e., Cole scheduled his homestead as two
separate parcels when it was really a single contiguous
157
158

Supp. Tr. 100:12 – 102:1.
Supp. Tr. 61:19 – 64:14; 77:1 – 16; 94:2 – 95:7; 101:12 – 102:1.

S. App. 58
parcel; Cole testiﬁed, contrary to his schedules, that
the State of Florida owned the 2.185 parcel of Unimproved Land; and Cole testiﬁed that the reason he attempted to split his homestead into two parcels was to
avoid liability for a water ski course.159
As a threshold matter, PRN never speciﬁcally pled
those alleged false oaths as a basis for its § 727(a)(4)(A)
claim. Other than a general allegation incorporating
paragraphs 135 through 200 of the Third Amended
Complaint, Count 11 contains one substantive allegation:
The Debtor knowingly and fraudulently, in or
in connection with this case has made multiple false oaths and accounts, including: i) failing to include all assets in his Schedules and
SOFA while testifying under oath they were
accurate; ii) failing to provide accurate information with respect to his income; iii) claiming that he is utilizing assets he claims are
owed as tenancies-by-the-entirety in order to
fund his lifestyle; and iv) claiming that
Coledev is owned as tenancy by the entireties
while recently stating under oath he was the
sole owner of the same.160
That allegation makes no mention of the alleged false
oaths regarding Cole’s homestead.161

159

Pl.’s Resp. Pursuant to Order Permitting Parties to Identify Errors in Prelim. Mem. Op., Adv. Doc. No. 495, at 2 – 4.
160
Third Am. Compl., Adv. Doc. No. 230, at ¶ 211.
161
Id.

S. App. 59
It is true that paragraphs 150 through 165, which
were incorporated into Count 11, include allegations
that Cole claimed he did not own the 2.185-acre parcel
of Unimproved Land and that he split his homestead
because of liability concerns. PRN’s conduct in this proceeding, however, shows that even PRN understood
those allegations were not a basis for its § 727(a)(4)(A)
false oath claim.
For instance, PRN’s pretrial statement, which
identiﬁes the factual and legal issues to be determined
for each count, makes no mention of false oaths regarding Cole’s homestead when discussing Count 11.162 And
nowhere in its post-trial brief does PRN argue that
Cole’s alleged false oaths regarding his homestead
warrant denial of his discharge under § 727(a)(4)(A).163
Simply put, PRN failed to properly plead Cole’s alleged
false oaths regarding his homestead as a basis for
PRN’s § 727(a)(4) false oath claim.
PRN now seeks leave to amend its pleadings to
conform to the evidence at trial so it can assert Cole’s
alleged false oaths regarding his homestead as a basis
for its § 727(a)(4) claim. Under Rule 15, PRN may
move to amend its pleadings—even after trial—if an
issue not raised by the pleadings was tried by the parties’ express or implied consent.164 An issue can be tried
by implied consent if, as PRN essentially contends
162

Pl.’s Pretrial Statement With Respect to Final Hr’g, Adv.
Doc. No. 382, at ¶ 39.
163
Pl.’s Post-Trial Brief, Adv. Doc. No. 435.
164
Fed. R. Civ. P. 15(b)(2).

S. App. 60
here, a party fails to object to the introduction of evidence raising issues outside the pleadings.165 That is
true, however, only if the evidence that comes in without objection is not relevant to issues already within
the pleadings.166 If the evidence being introduced is arguably relevant to other properly pled issues, then the
evidence would not give the opposing party “fair notice
that new issues are entering the case” or establish implied consent.167
Here, all the evidence relevant to Cole’s alleged
false oaths regarding his homestead were relevant to
issues already within the pleadings—e.g., whether
Cole fraudulently concealed his homestead. So, PRN
has failed to establish any implied consent by Cole. It
would be unfair and prejudicial to Cole to allow PRN
to “ﬁx” any pleading oversight or to add a new count
after the Court has issued its Preliminary Memorandum Opinion. PRN’s request to amend its pleadings to
conform to the evidence, therefore, is denied.
But, even if the Court did allow PRN to proceed
with a § 727(a)(4)(A) false oath claim based on Cole’s
alleged false oaths regarding his homestead, PRN

165

Doe #6 v. Miami-Dade Cty., 974 F.3d 1333, 1339 (11th Cir.

2020).
166

Id. (“For example, ‘[f ]ailure to object to evidence raising
issues outside of the pleadings constitutes implied consent as long
as the evidence is not relevant to issues already within the pleadings.’ ”) (quoting United States ex rel. Seminole Sheet Metal Co. v.
SCI, Inc., 828 F.2d 671, 677 (11th Cir. 1987)).
167
Id.

S. App. 61
would not prevail. PRN has not proven Cole fraudulently made false oaths regarding his homestead.
Take the statement in the schedules that the Improved Land and Unimproved Land were two parcels.
Although PRN argues the parcels previously were contiguous, when Cole ﬁled this bankruptcy case, the
statement was true. Cole could not create a false impression by listing his homestead as two parcels because, on the petition date, they legally were divided
into two parcels. However, to prevent any misunderstanding by the Trustee, on the day Cole ﬁled this
bankruptcy case, his lawyer contacted the Trustee, told
her they needed to meet about the case, and asked her
to bring her counsel along.168 During that initial meeting, which took place before Cole even ﬁled his schedules, Cole explained to the Trustee he recently had
divided his homestead into the two parcels.169 That belies any claim that Cole fraudulently misstated that
the Improved Land and Unimproved Land were two
parcels.
As for the reason Cole gave for splitting his homestead into two parcels (i.e., to avoid liability for a water
ski course), PRN argues it was obviously a lie because
Cole continued to own both parcels after the split. And
PRN says the alleged false statement was fraudulent
because it was done cover up his attempt to gerrymander his homestead. But, to repeat, Cole disclosed to the
Trustee—even before he ﬁled his schedules—that he
168
169

Trial Tr. 1368:6 – 15.
Id. at 1368:6 – 1369:8.

S. App. 62
split his homestead into two parcels. The stated reason
for the homestead division is largely irrelevant when
Cole disclosed the recent deeds literally on the day he
ﬁled this bankruptcy. No fraudulent misrepresentations were made.
That leaves Cole’s claim that the State of Florida
owned the submerged Unimproved Land. Judge Jackson considered that very issue at the trial on PRN’s
and the Trustee’s objections to Cole’s homestead exemption claim.170 In declining to rule who owned the
Unimproved Land, Judge Jackson observed that the
ownership issue was “both fascinating and complex.”171
And she noted that both PRN and Cole presented “reasoned arguments.”172 Given Judge Jackson’s observation that Cole presented a reasoned argument on a
complex issue, I cannot conclude Cole fraudulently
made a false oath regarding who owned the Unimproved Land (either at the homestead exemption trial
or the trial in this proceeding).
PRN has failed to prove Cole made any false oath
in his bankruptcy papers that would preclude entry of
a discharge. Cole is entitled to judgment in his favor
and against PRN on Count 11.

170

Mem. Decision Sustaining, In Part, Objs. to Debtor’s
Claim of Exemption, Case No. 6:15-bk-06458-KSJ, Doc. No. 788,
at 17.
171
Id.
172
Id.

S. App. 63
VII. Conclusion.
PRN asserts many bases for making its debt nondischargeable or for denying Cole a discharge. PRN
has proven no reason to grant these requests. The
Court acknowledges this is a tough case with a robust
history between the parties. But now it is time to conclude this litigation. Cole will receive a discharge. And
his debt to PRN, whenever liquidated, is dischargeable.
###
Attorney Christopher R. Thompson will serve a copy of
this Preliminary Memorandum Opinion on interested
parties who do not receive service by CM/ECF and will
ﬁle a proof of service within 3 days of entry of the Opinion.

